                     NATIONAL SCIENCE FOUNDATIOlv
                       WASHINGTON, D.C. 20550




    Off ice of
Inspector General



MEMORANDUM
    DATE: March 31,
                                                    tions Unit
 SUBJECT:    I                                      -                  --




       TO:   Case No. I91120027




          -
On December 10, 1991, we received a call from SA               US
Customs Service,            7. SA 6 t a t ed d- t              an
                                      a research ship being built
                                      uilt with substandard bolts




                                                                 -
                          SA -said      that Customs Service was
sending an agent to Fheck the bolts being used.
I called               (             an
I was told that NSF does not have a contract for the ship.       NSF
does have a contract with
provide services to NSF i
contract with
                *,
I relayed this' in£ormation to SA   .-   -



On March 13, 1992, I called SA    b)    S A a i d that Customs
checked and found nothing to sub antiate the allegation. Customs
checked the bolts being used for the ship to see if they are on the
list of substandard bolts. If something further came up SA
said that he would contact me.
On                          said that heard of no other allegations
about the                     and they were going to close their
file.
This case is closed.
